HHS/OIG, Audit -"Eight-State Review of the Ability of Noncustodial Parents To Contribute
Toward the Medical Costs of Title IV-D Children That Were Paid Under the Medicaid Program,"(A-01-03-02501)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Eight-State Review of the Ability of Noncustodial Parents To Contribute Toward the Medical
Costs of Title IV-D Children That Were Paid Under the Medicaid Program," (A-01-03-02501)
June 7, 2005
Complete
Text of Report is available in PDF format (860 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report consolidates the results of our eight-State review of the ability of noncustodial parents
to contribute toward the Medicaid costs of Title IV-D children.  Our objective was to estimate
the potential savings to the Medicaid program if noncustodial parents had been required to contribute
toward the Medicaid costs incurred for their children.  States can reduce State and Federal Medicaid
costs by increasing the number of noncustodial parents who provide medical support for their children.  For
the 1-year period we tested, 27 percent of Title IV-D children who were enrolled in Medicaid had noncustodial
parents who were financially able to contribute toward their childrens Medicaid costs.  These
noncustodial parents could contribute an estimated $99 million of the Medicaid costs for the Title
IV-D children reviewed in the eight States.
We recommended that ACF and CMS: (1) provide specific guidance to States on collecting Medicaid costs
from noncustodial parents who have the financial ability to pay and who do not have affordable employer-sponsored
health coverage available, (2) clarify third-party liability regulations to assist State Medicaid agencies
in coordinating with State Title IV-D agencies to collect Medicaid costs from noncustodial parents
with medical support orders, and (3) seek legislation that would allow States to accumulate medical
support payments to offset Medicaid fee-for-service costs for a reasonable period.